     OFFICE OF

INSPECTOR GENERAL




Semiannual Report to Congress

April 1, 1999 - September 30, 1999





   Federal Election Commission

        999 E Street, N.W.

             Suite 940

        Washington, D.C.




         November 1999

                                  TABLE OF CONTENTS


SUBJECT                                                                                     PAGE




EXECUTIVE SUMMARY..........................................................                    1


FEDERAL ELECTION COMMISSION.....................................                               8


YEAR 2000 (Y2K).....................................................................           10


AUDITS...................................................................................      22


AUDIT FOLLOW-UP...............................................................                 23


INVESTIGATIONS..................................................................               34


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................           35


ECIE AND PCIE ACTIVITY.....................................................                    38


REPORTING REQUIREMENTS..............................................                           39


TABLE I - QUESTIONED COSTS...........................................                          40


TABLE II - FUNDS PUT TO BETTER USE.............................                                41


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.......................                                    42


OFFICE OF INSPECTOR GENERAL HOTLINE.....................                                       43





April 1, 1999 - September 30, 1999
                                EXECUTIVE SUMMARY


         This report is submitted pursuant to the Inspector General Act of

1978, as amended, and includes a summary of the Office of Inspector

General’s (OIG) activities for the period April 1, 1999 through September 30,

1999.



         A significant amount of available OIG resources have been committed

to the Y2K issue, not only during this reporting period, but during the past

calendar year. The main focus of this report will be on that effort.



         During this reporting period, a real-time audit was conducted on the

agency’s Y2K effort resulting in nine constructive recommendations.

However, issuance of the audit report did not end OIG involvement. We

immediately followed up and tracked the agency’s progress in implementing

our audit recommendations, and continue to evaluate and report on the

agency’s Y2K progress as regularly reported by the FEC to OMB. In

addition, an OIG review for Y2K renovation of the agency’s embedded chip

technology has been scheduled during the next reporting period.



         We have continued to keep the Commissioners and management

apprised of agency progress in the Y2K area by a series of advisory

memorandums. In an advisory memorandum dated April 20, 1999, the OIG

identified two high risk conditions relating to the agency’s Y2K renovation

April 1, 1999 - September 30, 1999                                           Page 1
efforts. In another memorandum dated July 20, 1999, the OIG identified

conditions which continue to pose a high risk to the FEC. Further details

concerning these memorandums can be found in the Y2K section of this

report.



         As a consequence of our audit report and advisory letters, the IG and

the Director of Data Systems Development Division (DSDD) were

subsequently asked to give testimony before the FEC Commissioners,

appraising agency progress in the Y2K renovation project. The Director of

DSDD expressed confidence that under his leadership the agency’s Y2K

problems would be fully resolved. Contrary to the positive assurance

expressed by the Director of DSDD, the IG reported that based on evidence

gathered during the Y2K audit, along with results from a follow-up

evaluation, the FEC remains highly vulnerable to the Y2K problem.



         The Commissioners showed particular concern for the degree of

assurance the agency’s Y2K project could provide that our computer systems

and related technology will be prepared for January 1, 2000. The

Commissioners have scheduled another open discussion regarding the Y2K

issue for November 10, 1999. Details concerning the original hearing can be

found in the Y2K section of this report. The OIG will continue to monitor the

Commissions progress in addressing its Y2K responsibilities.




April 1, 1999 - September 30, 1999                                         Page 2
         Also during this reporting period, follow-up work was done on three

audits and two cash counts of the FEC’s imprest fund were performed. The

audit and follow-up work are summarized below:



         Audit of Agency Year 2000 (Y2K) Renovations - OIG 98-08:

         The primary objectives of the audit were to 1) verify the reported

         progress of the FEC’s Y2K renovation project; and 2) evaluate

         compliance with applicable laws & regulations. Agency progress was

         evaluated using OMB’s milestone dates and GAO’s methodology. The

         Y2K team was regularly updated on all project risk identified during

         the audit fieldwork and provided specific recommendations to reduce

         exposure to those risks.



         During the audit agency computer systems were identified, assigning

         the highest priority to those systems which transfer data and systems

         that receive electronic data from outside sources. The audit assessed

         the risk associated with the Y2K renovation of the computer systems

         within these critical areas and recommendations were offered which

         we felt would reduce the agency’s exposure to the Y2K problem.



         We found, among other things, that the agency’s computer hardware,

         3rd party software, and supporting communications network were not

         yet Y2K compliant. In addition, while system renovation work and



April 1, 1999 - September 30, 1999                                            Page 3
         unit testing had been performed, other testing on the agency’s most

         important computer system had yet to be completed.



         Based on the audit work, we concluded that the progress reported by

         the FEC is consistent with the actual Y2K project results achieved.

         However, there are still major issues to be addressed before the

         Commission can be Y2K compliant.



         The audit report contained nine constructive recommendations for

         project improvement. Details concerning this audit are discussed in

         the Y2K section of this report.




         Follow-up work on the audit of the Commission’s Management

         of Computer Software - OIG 98-05, was conducted during this

         reporting period. The original audit report was released March 1999.

         The primary objectives of the audit were to 1) verify that the

         Commission’s computer software was in compliance with applicable

         copyright laws and Commission policies and procedures; 2) determine

         that adequate policies and procedures are in place to prevent

         unauthorized software use by Commission employees; and 3) ensure

         that adequate controls are in place to detect and prevent computer




April 1, 1999 - September 30, 1999                                          Page 4
         viruses. The original report contained one finding and three

         recommendations.



         We inspected documents and contacted the Data Systems

         Development Division (DSDD) in order to determine whether

         corrective action has been taken to resolve the audit finding and

         recommendations. Based on our review of documents and

         correspondence with the DSDD staff, we found that DSDD has not

         completely resolved two of the three audit recommendations contained

         in our original report. Details of the follow-up work are discussed in

         the Audit Follow-up section of this report.




         Follow-up work on the audit of the FEC Property Management

         (Computer Inventory) - OIG 97-03, was conducted during this

         reporting period. The original audit was released January 1998. The

         primary objectives of the audit were to 1) identify and evaluate the

         adequacy of internal controls over desktop and laptop computers; and

         2) evaluate the procedures in place to ensure that computer equipment

         having an acquisition cost over $5,000 is capitalized and that there is

         documentation to support the unit cost of computers under $5,000.




April 1, 1999 - September 30, 1999                                           Page 5
         We inspected documents and contacted the Data Systems

         Development Division in order to determine whether corrective action

         has been taken to resolve the audit findings and recommendations.

         Based on our review of documents and correspondence with the DSDD

         staff, we found that although some action had been taken by the

         DSDD to correct the weaknesses cited in our report, the action taken

         was not sufficient enough to resolve the audit findings. Details of the

         follow-up work are discussed in the Audit Follow-up section of this

         report.



         Follow-up work on the audit of the Review of the Commission’s

         Employee Appraisal Process - OIG 97-02, was conducted during

         this reporting period. The original audit was released January 1998.

         The primary objectives of the audit were to 1) determine whether the

         Commission’s Employee Appraisal Process was in compliance with

         applicable Federal Regulations and Commission Personnel instructions;

         and 2) determine whether the Commission’s monetary incentive

         process is in compliance with applicable Federal Regulations and

         Commission Personnel Instructions.



         The original report contained four audit recommendations. After

         follow-up work was completed, it was discovered that one

         recommendation had been implemented, leaving three


April 1, 1999 - September 30, 1999                                          Page 6
         recommendations open. We would like to note that the Personnel

         office has had a significant staff turnover in the past two years. The

         current Director of Personnel has been working on the remaining open

         recommendations. Details of the follow-up work, as well as the status

         of the remaining open recommendations, are discussed in the Audit

         Follow-up section of this report.



         Also during this reporting period, a peer review of the office was

conducted by the Appalachian Regional Commission, Office of Inspector

General. The objectives of the peer review were to 1) determine whether an

effective internal quality control system had been established in the office;

and 2) established policies and procedures and applicable Government

Auditing Standards, as promulgated by the Comptroller General of the

United States (GAO), are being followed in practice.



         The review concluded that a system of internal controls is in place and

operating effectively and that the audits performed by the office are being

carried out in accordance with GAO Government Auditing Standards.

Details concerning the peer review are discussed in the Additional Office of

Inspector General Activity section of this report.




April 1, 1999 - September 30, 1999                                            Page 7
                THE FEDERAL ELECTION COMMISSION


         The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is composed of six Commissioners who are

appointed for six year terms by the President of the United States, with the

advice and consent of the Senate. The FECA likewise established the

positions of Staff Director and General Counsel, who are appointed by the

Commissioners.



                       OFFICE OF INSPECTOR GENERAL


         The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).



         The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:

                  o	       conduct and supervise audits and investigations relating

                           to the Federal Election Commission’s programs and

                           operations;



                  o        provide leadership, coordination, and to recommend




April 1, 1999 - September 30, 1999                                              Page 8
                           policies for activities designed to promote economy,

                           efficiency and effectiveness in the administration of

                           Commission programs and operations. To prevent and

                           detect fraud, waste and abuse in these programs and

                           operations, and;



                  o	       keep the Commissioners and Congress fully and currently

                           informed about problems and deficiencies and the need for

                           and progress of corrective actions.



The OIG staffing level for FY 2000 is 4 FTE. The staff consists of the

Inspector General, the Special Assistant to the Inspector General and two

Senior Auditors.




April 1, 1999 - September 30, 1999                                                 Page 9
                                     YEAR 2000 (Y2K)


         Early awareness of the size and scope of the Y2K problem, prompted

the OIG to commit a significant amount of available resources to assist the

FEC in addressing this vital issue. Early in 1998, the Staff Director was

notified of our interest in staying abreast of agency progress in making

computer systems Y2K compliant. Based on feedback from this request, the

OIG subsequently conducted a real-time audit resulting in nine constructive

recommendations for project improvement. However, issuance of our audit

report did not end OIG involvement. We immediately followed up and

tracked the agency’s progress in implementing our audit recommendations,

and we continue to evaluate and report on the agency’s Y2K progress as

regularly reported by the FEC to OMB. In addition, an OIG review has been

scheduled for Y2K renovation of the agency’s embedded chip technology.



         As mentioned, one of the major projects the OIG accomplished was a

real-time audit of the FEC’s Y2K Renovations. The audit, titled Audit of the

Agency Year 2000 Renovations, was released in May 1999. The primary

objectives of the audit were to 1) verify the reported progress of the FEC’s

Y2K renovation project; and 2) evaluate compliance with applicable laws and

regulations.




April 1, 1999 - September 30, 1999                                         Page 10
(Y2K Continued)

         The audit was conducted to assess whether the progress reported by

the FEC matched its overall state of readiness. Special emphasis was placed

on two priority areas: 1) systems that provide and receive electronic data

from outside parties; and 2) core business functions that rely on computer

processed data. To accomplish the objectives, various methods of data

collection were used, including interviews, surveys, and review of documents.



         The audit was not limited solely to evaluating the agency’s progress for

preparing its mission critical systems, a cursory review of the agency’s

overall state of readiness was also performed. To obtain a perspective on the

adequacy of the FEC’s Y2K project OMB directives were used, as well as

guidance issued by GAO. As part of the audit, the system of management

controls, policies, procedures, and practices applicable to the FEC’s

management of the Y2K project were assessed. During the course of the

audit, FEC officials were regularly briefed on audit results and suggestions

for improvement were offered.



         Based on our audit work, it was concluded that project status as

reported by the FEC was consistent with its actual progress. However,

reportable conditions were identified and nine recommendations for project

improvement were provided. Listed below are those recommendations, as




April 1, 1999 - September 30, 1999                                          Page 11
(Y2K Continued)

well as actions taken by Y2K project management since the release of the

audit report. The OIG recommended that:



                  1) The Y2K team inventory and document internal and external

                      data exchange dependency links. Project management has

                      implemented this recommendation.

                  2) The FEC should communicate with each external data

                      exchange partner regarding the Y2K issue. Project

                      management has reported that they implemented this

                      recommendation.

                  3) 	Project management issue the statement of work for

                      external communication services, complete work on the

                      internal communications network, and perform end-to-end

                      testing for the mission critical communication network. The

                      Information Technology contract has been signed, and project

                      management has reported that work is progressing on the

                      internal communication system, and system testing has been

                      scheduled.

                  4) 	the FEC improve the accuracy of its progress reports

                      submitted to the U.S. Office of Management and Budget




April 1, 1999 - September 30, 1999                                            Page 12
    (Y2K Continued)


                      regarding the agency’s Y2K project. Management has

                      implemented this recommendation.

                  5) a contingency plan be developed and tested in the event that

                      a mission critical system fails. Management has begun work

                      implementing this recommendation.

                  6) 	a thorough testing for the mission critical FEC Faxline

                      System should be performed. During October 1999, project

                      management successfully tested this system for Y2K

                      compliance.

                  7) 	the statement of work for independent verification of the

                      renovation of the agency’s internally developed software

                      should be issued. Management has signed a contract with an

                      outside vendor for these services.

                  8) 	if project management is to rely on user acceptance testing

                      as stated in agency Y2K project progress reports, then

                      project management should conduct meetings with each

                      division/office to assess whether user acceptance testing has

                      been completed. This audit recommendation has not been

                      implemented.

                  9) 	a listing of agency-wide computer technology contracts

                      should be prepared and evaluated to ensure that

April 1, 1999 - September 30, 1999                                              Page 13
(Y2K Continued)


                      Y2K provisions have been added to comply with Federal

                      regulations. Management has begun work implementing this

                      recommendation.



         Out of those nine recommendations - three recommendations have

been implemented; four recommendations are in different stages of

completion; one recommendation has not been implemented, and the OIG is

following up on one recommendation reported as implemented.



         The audit process has not been the only vehicle the OIG has used to

provide information to management and the Commission. For example, early

in the audit process the OIG provided the Y2K project team with an

electronic draft copy of a Y2K plan developed by the Department of

Education/Office of Post Secondary Education. This was done after the Y2K

project team repeatedly set deadline dates for the completion of a

comprehensive Y2K management plan and a plan was still not developed.



         It was recommended that the plan from the Department of Education,

be used as a benchmark guideline for developing the FEC Y2K management

plan. In addition, we suggested sending the final version of the FEC




April 1, 1999 - September 30, 1999                                        Page 14
(Y2K Continued)



comprehensive Y2K management plan, by way of a memorandum, to each

division/office in order to raise awareness and disseminate pertinent

information regarding the Y2K project. It was also suggested that the cover

memorandum request the submission of contingency plans for any high level

business function relying on data processed through a mission critical

computer system. The OIG felt that these suggestions and contributions

would increase an overall understanding of the problem and facilitate staff

involvement, helping to foster an agency-wide team effort.



         In another advisory memorandum to management, dated April 20,

1999, the OIG identified the following two high risk conditions relating to the

agency’s Y2K efforts:



         • 	 The Y2K project team had not prepared or documented a

             comprehensive Year 2000 management plan. We suggested that

             the FEC 1) immediately complete and distribute the agency-wide

             comprehensive Y2K management plan, and 2) establish timely

             delivery dates for receiving crucial information from the division

             offices regarding Y2K preparation. Project management has not

             implemented the OIG suggestion to develop and document a

             comprehensive set of plans for the Y2K Project.


April 1, 1999 - September 30, 1999                                          Page 15
    (Y2K Continued)



         • 	 Y2K conversions have been made without the Y2K project team

             documenting the changes made to the programming code. It was

             suggested that the FEC should develop and follow standardized

             procedures requiring documentation for any and all program

             software changes. Documentation should identify the types of

             changes made in the programs, the location of the changes or new

             code, the location of bridge programs and the technique being used

             to convert dates between files, applications, and data exchanges. It

             was further suggested that the Y2K project team document all

             changes to the software programs. Management has not

             implemented the OIG suggestions to have agency programmers

             document their Y2K repairs to the internally developed

             programming code.



         The OIG has also kept the Commission apprised of the status of the

Y2K project. In a memorandum to the Commission, dated July 20, 1999, the

OIG identified conditions which continued to pose a high risk to the FEC as a

result of the Y2K problem. We offered our suggestions for mitigating those

risks:

         • 	 According to the agency’s May 1999 Y2K progress report to OMB,

             as amended, the internal communications network is only 50% Y2K

April 1, 1999 - September 30, 1999                                          Page 16
(Y2K Continued)



             compliant and not scheduled to be completely renovated until

             November 30, 1999. This late renovation will allow little time for

             corrective action in the event that further efforts are proven

             necessary from either renovation or testing. The OIG suggested

             that the Commission follow guidelines developed by the General

             Accounting Office (GAO) in its publication, “Year 2000 Crisis: A

             Testing Guide” for designing a comprehensive Y2K testing plan. To

             date, no comprehensive Y2K testing plan has been distributed.




         • 	 Inadequate validation for Y2K renovations reduces the assurance

             that systems will operate properly when called upon to process

             critical future dates after January 1, 2000. Future progress reports

             should explain whether project management will contract for

             services to validate its Y2K testing techniques and procedures, and

             if not, then explain how validation of Y2K testing for the agency’s

             mission critical systems is to be achieved. Although, agency

             contracts show that the FEC has acquired verification of

             approximately 1.5 million lines of internally developed computer

             programming code, and issued purchase orders to perform




April 1, 1999 - September 30, 1999                                            Page 17
(Y2K Continued)



             independent verification of Y2K renovations on a limited selection of

             internal hardware and software; no evidence has been provided to

             indicate either independent validation of testing procedures or

             verification of system testing results.



         • 	 The FEC had no documented business continuity and contingency

             plan. Some assurance that compensating controls are in place to

             offset the risk associated with late Y2K renovation and testing of

             mission critical systems could be obtained, if the Y2K project team

             would develop a business continuity and contingency plan. We

             understand that an internal memorandum was distributed during

             October 1999, to agency division directors requesting that each

             division with a core mission critical responsibility submit detailed

             contingency plans. In addition, project management has recently

             submitted to the U.S. Office of Management and Budget a high level

             contingency plan, including a Day One plan.



         • 	 Whether or not Y2K compliance for embedded chip technology is

             being adequately addressed by the Y2K project team could not be

             determined from reading the agency’s progress report. For the next


April 1, 1999 - September 30, 1999                                             Page 18
(Y2K Continued)

             progress report, it was suggested that project management describe

             the specific methods used to assess compliance for embedded chip

             technology, the overall efforts taking place to repair non-compliant

             chips, and the details regarding the impact of embedded chip

             technology on agency equipment and building facilities. Based on

             documentation and information received by the OIG during October

             1999, it appears that the Y2K team has obtained sufficient evidence

             to provide a reasonable assurance that embedded chip technologies,

             including building and infrastructures, will not present a problem

             for the FEC on January 1, 2000.



         Involvement by Federal Inspectors General in their agency’s Year 2000

(Y2K) renovation projects, we believe illustrates the latest accomplishment

by the IG community in achieving reengineering goals established for the

1990’s. The IG audit community has turned from its traditional role as a

messenger, primarily reporting on past practices, to becoming an informed

intermediary, communicating the current status of agency affairs to agency

heads. This was recently demonstrated at the Federal Election Commission.



         The Chairman of the FEC asked the OIG, along with the Director of

Data Systems Development Division to discuss at an open meeting, the


April 1, 1999 - September 30, 1999                                          Page 19
(Y2K Continued)

agency’s progress in the renovation of its computer technology to be Y2K

compliant. Public meetings at the FEC are presided over by six

Commissioners, who are appointed by the President of the United States and

confirmed by the Senate. Open meetings at the FEC closely resemble the

proceedings of a public Congressional hearing. The seating layout is similar

to that found in a Congressional hearing room, including space reserved for

media coverage. Additionally, agenda documents are submitted in advance

and all open meetings are taped with copies of the tapes available to the

public.



         This was the setting on September 16, 1999 when the IG and the

Director of DSDD gave testimony before the Commissioners, appraising

progress in the FEC’s Y2K renovation project. The Director of DSDD

expressed confidence that the agency’s Y2K problems would be fully resolved.

However, the Director also acknowledged that major tasks remain before the

FEC would be Y2K compliant. For instance, the Director reported that

system testing of mission critical computer systems would not be completed

before November 30, 1999.



         Contrary to the positive assurances expressed by the Director of

DSDD, the IG reported that based on evidence gathered during a recent OIG

audit with results from a follow-up evaluation, the FEC remained highly

April 1, 1999 - September 30, 1999                                          Page 20
 (Y2K Continued)

vulnerable to the Y2K problem. Although, the IG recognized and applauded

accomplishments by project management, it was pointed out that in light of

the agency’s slow progress in testing computer systems; performance criteria

established to claim Y2K compliance for mission critical systems with

external data exchanges most likely could not be completed prior to late

December 1999.



         Consequently, at the conclusion of the September 16th meeting, the

Commissioners made an impromptu decision to have the IG return and

discuss the agency’s progress at another open meeting, which has been

scheduled for November. Hopefully, in this new role, the IG community can

help prevent high risk conditions from becoming future OIG audit report

findings.




April 1, 1999 - September 30, 1999                                         Page 21
                                                  AUDITS


TITLE:                               Agency Year 2000 Renovations


ASSIGNMENT #:                        98-08


RELEASE DATE:                        May, 1999


PURPOSE:                             The primary objectives of our audit were to 1)


verify the reported progress of the FEC’s Y2K renovation project; and 2)


evaluate compliance with applicable laws & regulations.




         Detailed information concerning this audit can be found in the Y2K

section of this report, pages 11 to 15.




April 1, 1999 - September 30, 1999                                                 Page 22
                                      AUDIT FOLLOW-UP


TITLE:                               Review of the Commission’s Employee
                                     Appraisal Process

ASSIGNMENT #:                        97-02

RELEASE DATE:                        January 1998
 (audit report)

PURPOSE:                             The OIG continued to follow-up on the status of the

four audit recommendations contained in the audit report on the

Commission’s employee appraisal process. The OIG conducted the first audit

follow-up in a prior reporting period to determine whether corrective action

had been taken by management to resolve the audit findings and

recommendations. The results of the prior audit follow-up were issued to the

Commission on March 31, 1999. The OIG concluded, in our memorandum to

the Commission in March of 1999, that the Personnel Office had not resolved

the four audit recommendations contained in the January 1998 audit report.



         The objectives of the audit of the Commission’s employee appraisal

process were to 1) determine whether the Commission’s employee appraisal

process was in compliance with applicable Federal regulations and

Commission Personnel Instructions; and 2) determine whether the

Commission’s monetary incentive process was in compliance with applicable

Federal regulations and Commission Personnel Instructions.




April 1, 1999 - September 30, 1999                                                Page 23
(Audit Follow-up Continued)

         The audit addressed compliance with the Commission’s Personnel

Instructions and Federal regulations as they related to the employee

appraisal process. The audit included a review of employee performance

folders and performance plans. The OIG also verified that appraisals were

properly reviewed and submitted timely to the Personnel Office. In addition,

the audit included a review of performance and incentive awards to verify

that the awards were granted in accordance with Commission policy and

Federal regulations and processed in a timely manner. The audit report

included four recommendations to the Personnel Office to address

weaknesses in the Commission’s employee appraisal process.



         The OIG contacted the Personnel Office to determine whether the

Personnel Office had implemented the audit recommendations. The OIG

concluded that the Personnel Office had implemented one of the four

recommendations.



         The audit report included a finding that the retention of performance

related documents contained in the employee performance files (EPFs)

exceeded the time period allowed by the Code of Federal Regulations (CFR).

The OIG recommended that the Personnel Office retain performance related

documents in accordance with the CFR and amend a Personnel Instruction on



April 1, 1999 - September 30, 1999                                        Page 24
(Audit Follow-up Continued)



EPF procedures to comply with the CFR. The OIG inspected the employee

performance files (EPFs) and the revised Personnel Instruction and

confirmed that the Personnel Office had implemented the audit

recommendation.



         The Personnel Office has not implemented the remaining three audit

recommendations that have been outstanding since January 1998. The OIG

recognizes that the Personnel Office has experienced a significant staff

turnover within the past two years. In addition, one of the three audit

recommendations which remain outstanding would require negotiations and

an amendment to the National Treasury Employees Union/FEC Labor

Management Agreement. The OIG will continue to monitor the status of the

recommendations and is encouraged with the Personnel Office’s commitment

to correct the weaknesses identified by the OIG.



         The OIG intends to provide the Commission and the Personnel Office

the results of our continued audit follow-up.




April 1, 1999 - September 30, 1999                                         Page 25
(Audit Follow-up Continued)




TITLE:                               Audit of the Commission’s Management of
                                     Desktop and Laptop Computers

ASSIGNMENT #                         97-03

RELEASE DATE:                        January 1998

PURPOSE:                             The audit follow-up was conducted to determine

whether corrective action had been taken by management to resolve the

audit findings and recommendations contained in the audit report on the

Commission’s management of desktop and laptop computers. The audit

report was released on January 14, 1998.



         The objectives of the audit of the Commission’s management of

desktop and laptop computers were to 1) identify and evaluate the adequacy

of internal controls over desktop and laptop computers; and 2) evaluate the

procedures in place to ensure that computer equipment having an acquisition

cost over $5,000 is capitalized and computer equipment with unit costs under

$5,000 are supported.



         The audit was designed to address the adequacy of the FEC’s

management of desktop and laptop computers and the accuracy and

reliability of inventory listings which are used by the FEC to assess needs,

support procurement action and manage and service the equipment. The


April 1, 1999 - September 30, 1999                                               Page 26
(Audit Follow-up Continued)

audit also included a review of the adequacy of internal procedures used to

identify and capitalize automated data processing (ADP) equipment. Manual

or automated accounting procedures must ensure that all equipment with an

acquisition cost over $5,000 must be capitalized and reported to the U.S.

Department of Treasury. Equipment under $5,000 is expensed and reported

as such to Treasury.



         The audit report included two recommendations to improve the

management of ADP equipment. First, the OIG recommended that divisions

take an annual physical inventory of laptop computers and forward the

results to the Data Systems Development Division (DSDD) to be reconciled

with the DSDD’s inventory database. The OIG recommended that the

DSDD be responsible for documenting the results of the inventory on an

annual basis. Second, the OIG recommended that written policies and

procedures should be established for the accountability and control of

personal computer property. The OIG recommended that the policies and

procedures should be disseminated to all agency personnel engaged in

personal property management functions and that appropriate policies,

procedures, and training are provided to involved personnel.



         The audit follow-up consisted of correspondence with the DSDD and

the inspection of documents to determine whether corrective action had been

April 1, 1999 - September 30, 1999                                       Page 27
(Audit Follow-up Continued)

taken to resolve the audit findings and recommendations. The OIG

acknowledges the efforts of the DSDD to address the OIG’s audit

recommendations. The DSDD worked on accounting for the Commission’s

laptops and prepared and issued guidelines on the management of desktop

and laptop computers. However, the OIG believes additional steps are

necessary by the DSDD in order for the OIG to close the two

recommendations.



         The DSDD provided the OIG with documentation of their completed

inventory of laptop computers for the audit follow-up. The OIG reviewed the

listing and concluded that several Commission laptops that had been retired

were not reflected on the inventory list. The retired laptops are Commission

property and according to the DSDD are stored in a secure area. The OIG

believes the inventory listing should include a complete accountability of all

Commission owned laptop computers. Therefore, the OIG concluded that the

DSDD had not adequately implemented the recommendation.



         The DSDD also provided the OIG with a copy of a policies and

procedures document titled “Management of Desktop and Laptop Computers”

which was issued by the DSDD to the head of each Commission division. The

policies and procedures address the accountability and control of personal

computer property. The OIG reviewed the policies and procedures and found

April 1, 1999 - September 30, 1999                                        Page 28
(Audit Follow-up Continued)

that the document does not address procedures on two important areas that

were addressed by the OIG in the audit report, lost or stolen equipment and

obsolete equipment. The policies and procedures should include the

Commission’s procedures for employees to report lost or stolen equipment and

guidance on the procedures for disposing of obsolete or excess equipment.

Therefore, the OIG did not close the recommendation.



         The OIG intends to provide the Commission and the DSDD the results

of the audit follow-up.




April 1, 1999 - September 30, 1999                                      Page 29
(Audit Follow-up Continued)



TITLE:                               Audit of the Commission’s Management of
                                     Computer Software

ASSIGNMENT #                         98-05

RELEASE DATE:                        March 1999
 (Audit Report)

PURPOSE:                             The audit follow-up was conducted to determine

whether corrective action had been taken by management to resolve the

audit finding and recommendations contained in the audit report on the

Commission’s management of computer software. The audit report was

released on March 31, 1999.



         The objectives of the audit of the Commission’s management of

computer software were to 1) verify that Commission computer software

was in compliance with applicable copyright laws and Commission policies

and procedures; 2) determine that adequate policies and procedures were in

place to prevent unauthorized software use by Commission employees; and 3)

ensure that adequate controls were in place to detect and prevent computer

viruses.



         The audit included a review of computer software programs installed

on Commission computers to ensure that software complied with applicable

software copyright laws and Commission policies and procedures. The OIG


April 1, 1999 - September 30, 1999                                               Page 30
(Audit Follow-up Continued)

reviewed the Commission’s policies and procedures related to computer

software to determine whether adequate policies were in place to prevent

unauthorized software use by employees. Lastly, a review of the

Commission’s anti-virus software system was performed to ensure adequate

controls were in place to detect and prevent computer viruses. The audit

report released in March of 1999 contained one audit finding that controls

needed to be strengthened to ensure the Commission’s computers are

adequately protected against computer viruses. Two recommendations were

directed to the Data Systems Development Division (DSDD) and one to the

Accounting Office to strengthen controls.



         The audit follow-up consisted of correspondence with the DSDD and

the inspection of documents to determine whether corrective action had been

taken to resolve the audit finding and recommendations. In addition, a

review of information received by the Accounting Office was performed to

determine whether existing controls in the Accounting Office would be

sufficient to address our recommendation.



         The OIG concluded that the DSDD had not completely resolved the

two audit recommendations based on the inspection of documents and

correspondence with the DSDD. The OIG recognizes the efforts of the

DSDD to address the recommendations and should be commended for their

April 1, 1999 - September 30, 1999                                       Page 31
(Audit Follow-up Continued)



work. However, the actions taken were not sufficient to resolve the audit

finding and recommendations. Therefore, the two recommendations remain

open.



         The OIG concluded that the Accounting Office’s response to the audit

recommendation to strengthen controls adequately addressed the weakness

regarding anti-virus software and several Accounting Office computers.

Therefore, the recommendation directed to the Accounting Office was closed.



         The DSDD is involved in a project to install the latest anti-virus

software and the current virus data files on all Commission desktop and

laptop computers with an anticipated completion date of September 30, 1999.

In order to close a recommendation, the OIG must verify that the DSDD has

implemented the recommendation prior to the close of the reporting period.

Therefore, the OIG was unable to verify that the DSDD had installed anti-

virus software and the current virus data files on all Commission desktop and

laptop computers prior to the close of the reporting period ending September

30, 1999. The OIG plans to review the DSDD’s implementation of the audit

recommendation during our next reporting period. The recommendation will

be closed upon verification that anti-virus software and the current virus

data files have been installed on all desktop and laptop computers.


April 1, 1999 - September 30, 1999                                            Page 32
(Audit Follow-up Continued)



         The DSDD also issued a procedures memorandum titled “FEC

Computer Virus Protection Guidelines” to several DSDD staff to help ensure

that the Commission’s computers are protected from computer viruses.

However, in order to ensure that the Commission’s computers are adequately

protected, it is imperative that all Commission employees are aware of their

responsibilities to protect the Commission’s computers from computer

viruses. Therefore, the OIG believes the DSDD should issue guidelines to all

staff. The DSDD has stated their intentions to issue guidelines to all staff

during the next reporting period which the OIG will verify in order to close

the recommendation.



         The OIG intends to provide the Commission, the DSDD, and the

Accounting Office with the results of the audit follow-up.




April 1, 1999 - September 30, 1999                                       Page 33
                                     INVESTIGATIONS


No new investigations were opened during this reporting period.




April 1, 1999 - September 30, 1999                                Page 34

      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


         All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General also routinely reads

all Commission agenda items and attends Finance Committee Meetings.



         During this reporting period, a peer review of the office was conducted

by the Appalachian Regional Commission’s (ARC) Office of Inspector General.

A peer review, by definition, is a review of an audit organization by an

organization not affiliated with the audit organization being reviewed. The

objectives of a peer review are to foster quality audits by OIGs through an

independent assessment of their audit functions. This is accomplished by

determining whether 1) an effective internal quality control system has been

established in the office; and 2) established policies and procedures and

applicable Government Auditing Standards, as promulgated by the

Comptroller General of the United States, are being followed in practice.



         The scope of this review included 1) selected reports and working

papers for audits completed during the past two years; 2) audit universe and

planning documents; 3) documents describing auditor experience and

training, security practices over audits and related records; and 4) policies

and procedures used to carry out the audit function. Additionally, OIG staff


April 1, 1999 - September 30, 1999                                           Page 35
were interviewed to verify the actual practices of audit control and follow-up

procedures.



         The peer review was completed in accordance with the bylaws for peer

review evaluations adopted by the Inspectors General of Designated Agencies

of the Executive Council on Integrity and Efficiency. The peer review

conducted by ARC’s OIG concluded that a system of internal controls is in

place and operating effectively and that all audits performed by the office are

being carried out in accordance with GAO Government Auditing Standards.

In addition, the office was found to possess the necessary professional

requirements to perform our duties. Furthermore, all continuing education

requirements have been met.



         The Inspector General served on the evaluation panel for the Inspector

General position in the Office of Inspector General, National Archives and

Records Administration. The heads of agencies experiencing a vacancy in the

IG position will, on occasion, contact the Vice Chair of the Executive Council

on Integrity and Efficiency requesting assistance from the community in the

selection process. Thirty-five applicants were evaluated by the panel.



         As an ongoing project, the Special Assistant to the Inspector General

performed two unannounced cash counts of the FEC’s imprest fund (#OIG-

99-02 and #OIG-99-03). The imprest fund consists of three drawers totaling



April 1, 1999 - September 30, 1999                                        Page 36
$2,500. The results of the cash counts revealed no overage or underage and

all cash was accounted for. In addition, our reviews revealed that cash

disbursements from the imprest fund were reasonable and consistent with

FEC imprest fund policy.




April 1, 1999 - September 30, 1999                                        Page 37
                              ECIE AND PCIE ACTIVITY


         The executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



         The Inspector General (or staff) attending the following training,

programs and/or conferences during this reporting period:



         •   IGATI - Fraud Auditing - Theory and Application

         •   Management Concepts - The Professional Woman Manager

         •   Management Concepts - Introduction to Federal Contracting

         •   Management Concepts - Writing Winning Reports

         • 	 PCIE Professional Development Forum - The Aftermath of the
               Supreme Court’s Decision in NASA v. FLRA

         • 	 U.S. Department of Education - Moving to the next GPRA
                Level - Using the Plans for Decision Making

         •   ECIE - Formal and Informal Meetings

         • 	 PCIE Professional Development Forum - The Honorable
               Christopher Shays

         • 	 PCIE Professional Development Forum - The Honorable
               George Nethercult

         •   PCIE/ECIE - Joint Annual Meeting



April 1, 1999 - September 30, 1999                                            Page 38
IG ACT                     REPORTING REQUIREMENTS                                         PAGE

Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:

Section 4(a)(2)            Review of Legislation-----------------------------------------------35

Section 5(a)(1)	           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(2)	           Recommendations with Respect to
                           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(3)	           Recommendations Included in Previous
                           Reports on Which Corrective Action Has
                           Not Been Completed-----------------------------------------------42

Section 5(a)(4)	           Matters Referred to Prosecutive
                           Authorities---------------------------------------------------------None

Section 5(a)(5)	           Summary of Instances Where Information
                           was Refused-------------------------------------------------------None

Section 5(a)(6)            List of Audit Reports----------------------------------------------22

Section 5(a)(7)            Summary of Significant Reports------------------------------22

Section 5(a)(8)            Questioned and Unsupported Costs--------------------------40

Section 5(a)(9)	           Recommendations that Funds be put
                           to Better Use--------------------------------------------------------41

Section 5(a)(10)	          Summary of Audit Reports issued before
                           the start of the Reporting Period for which
                           no Management Decision has been made----------------N/A

Section 5(a)(11)           Significant revised Management Decisions-------------N/A

Section 5(a)(12)	          Management Decisions with which the
                           Inspector General is in Disagreement-------------------None




April 1, 1999 - September 30, 1999                                                                     Page 39
                                           TABLE I

                        INSPECTOR GENERAL ISSUED REPORTS
                              WITH QUESTIONED COSTS


                                                     DOLLAR VALUE (in thousands)

                                                     QUESTIONED    UNSUPPORTED
                                          NUMBER        COSTS         COSTS




A. 	 For which no management                0             0              [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the             0             0              [0]
   reporting period

         Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                 0             0              [0]
     decision was made during
     the reporting period

         (i) Dollar value of disallowed     0             0              [0]
             costs

         (ii) Dollar value of costs         0             0              [0]
              not disallowed


D. 	 For which no management                0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management        0             0              [0]
     decision was made within
     six months of issuance




April 1, 1999 - September 30, 1999                                             Page 40
                                           TABLE II

              INSPECTOR GENERAL ISSUED REPORTS WITH
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                               NUMBER   DOLLAR VALUE
                                                         (in thousands



A.	      For which no management                 0            0
         decision has been made by
         the commencement of the
         reporting period

B. 	     Which were issued during                0            0
         the reporting period

C.	      For which a management                  0            0
         decision was made during
         the reporting period

         (i) 	    dollar value of                0            0
                  recommendations
                  were agreed to by
                  management

                  based on proposed              0            0
                  management action

                  based on proposed              0            0
                  legislative action

         (ii) 	   dollar value of                0            0
                  recommendations
                  that were not agreed
                  to by management

D. 	     For which no management                 0            0
         decision has been made by
         the end of the reporting period

E. 	     Reports for which no                    0            0
         management decision
         was made within six months
         of issuance




April 1, 1999 - September 30, 1999                                   Page 41
                                               TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                           Recommendations
Audit              Report            Management
Report             Issue              Response
Number             Date                 Date               Number   Closed   Open

97-02              01/98               01/98                 4        1        3


97-03              01/98               03/98                 2        0        2


98-05              03/99               03/99                 3        1        2





April 1, 1999 - September 30, 1999                                           Page 42

April 1, 1999 - September 30, 1999   Page 43
